       DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




December 1, 2009

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of New Opportunities, Inc.’s, Compliance With Health and Safety
               Regulations for Head Start Programs (A-01-09-02505)


Attached is an advance copy of our final report on New Opportunities, Inc.’s (the Grantee),
compliance with Head Start health and safety regulations. We will issue this report to the
Grantee within 5 business days. The Administration for Children and Families, Office of Head
Start (OHS), requested this review.

The Grantee provides early learning services to children aged 6 weeks to 5 years and their
families through a variety of programs at three facilities in Waterbury, Connecticut. For program
year 2008–2009, OHS awarded approximately $3.97 million in Federal Head Start funds to the
Grantee to provide services to 477 children. On July 29, 2009, the Grantee also received
$260,210 in Recovery Act funding.

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

The Grantee did not fully comply with Federal and State regulations on ensuring the health and
safety of children in its care. Specifically, as of May 2009:

       The files on 6 of the Grantee’s 127 Head Start employees did not contain (1) employee-
        signed declarations listing any relevant criminal convictions, (2) fingerprint cards for
        Federal and State criminal record checks, or (3) evidence of a check of the State child
        abuse and neglect registry. The files on the 121 remaining employees had all required
        documents.

       The Grantee’s three childcare facilities did not always meet Federal Head Start and State
        regulations on protecting children from unsafe materials and equipment.
Page 2 – Yvette Sanchez Fuentes


      The Grantee’s three childcare facilities did not always provide a secure environment for
       the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and State
health and safety regulations. The Grantee’s failure to follow these regulations jeopardized the
health and safety of children in its care.

We recommend that the Grantee develop and consistently implement procedures to ensure that:

      all employee files contain documentation of (1) employee-signed declarations listing any
       relevant criminal convictions, (2) fingerprint cards for Federal and State criminal record
       checks, and (3) evidence of a check of the State child abuse and neglect registry;

      all unsafe materials and equipment are stored in locked areas out of the reach of children
       and all necessary repairs are addressed in a timely manner; and

      all facilities are secure.

In written comments on our draft report, the Grantee described its completed and ongoing
actions to address the deficiencies that we identified.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2689 or through email at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-09-02505.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203



December 7, 2009

Report Number: A-01-09-02505

James H. Gatling, Ph.D.
President/CEO
New Opportunities, Inc.
232 North Elm Street
Waterbury, Connecticut 06702

Dear Dr. Gatling:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of New Opportunities, Inc.’s, Compliance With
Health and Safety Regulations for Head Start Programs.” We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact George Nedder, Audit Manager, at (617) 565-3463 or through email at
George.Nedder@oig.hhs.gov. Please refer to report number A-01-09-02505 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – James H. Gatling, Ph.D.


Direct Reply to HHS Action Official:

Mr. Rick Borseti
Regional Administrator
Administration for Children and Families, Region 1
U.S. Department of Health and Human Services
JFK Federal Building, Room 2000
Boston, Massachusetts 02203
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




              REVIEW OF
  NEW OPPORTUNITIES, INC.’S,
 COMPLIANCE WITH HEALTH AND
   SAFETY REGULATIONS FOR
    HEAD START PROGRAMS




                       Daniel R. Levinson
                        Inspector General

                         December 2009
                         A-01-09-02505
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

New Opportunities, Inc. (the Grantee), provides early learning services to children aged 6 weeks
to 5 years and their families through a variety of programs at three facilities in Waterbury,
Connecticut. For program year 2008–2009, OHS awarded approximately $3.97 million in
Federal Head Start funds to the Grantee to provide services to 477 children. On July 29, 2009,
the Grantee also received $260,210 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State regulations on ensuring the health and
safety of children in its care. Specifically, as of May 2009:

      The files on 6 of the Grantee’s 127 Head Start employees did not contain (1) employee-
       signed declarations listing any relevant criminal convictions, (2) fingerprint cards for
       Federal and State criminal record checks, or (3) evidence of a check of the State child
       abuse and neglect registry. The files on the 121 remaining employees had all required
       documents.

      The Grantee’s three childcare facilities did not always meet Federal Head Start and State
       regulations on protecting children from unsafe materials and equipment.

      The Grantee’s three childcare facilities did not always provide a secure environment for
       the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and State
health and safety regulations. The Grantee’s failure to follow these regulations jeopardized the
health and safety of children in its care.




                                                  i
RECOMMENDATIONS

We recommend that the Grantee develop and consistently implement procedures to ensure that:

      all employee files contain documentation of (1) employee-signed declarations listing any
       relevant criminal convictions, (2) fingerprint cards for Federal and State criminal record
       checks, and (3) evidence of a check of the State child abuse and neglect registry;

      all unsafe materials and equipment are stored in locked areas out of the reach of children
       and all necessary repairs are addressed in a timely manner; and

      all facilities are secure.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee described its completed and ongoing
actions to address the deficiencies that we identified. The Grantee’s comments are included in
their entirety as Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program...........................................................................1
              Federal Regulations for Head Start Grantees.................................................1
              New Opportunities, Inc..................................................................................1
              Office of Inspector General Audits................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          EMPLOYEE DECLARATIONS AND CRIMINAL RECORD CHECKS ..............3
              Federal and State Regulations........................................................................3
              Grantee’s Compliance With Federal and State Preemployment
                Regulations .................................................................................................4

          MATERIAL AND EQUIPMENT SAFETY .............................................................4
              Federal and State Regulations........................................................................4
              Grantee’s Compliance With Material and Equipment Safety
                Regulations .................................................................................................5

          FACILITY SECURITY.............................................................................................6
               Federal and State Regulations........................................................................6
               Grantee’s Compliance With Facility Security Regulations ...........................6

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES ..............6

          RECOMMENDATIONS ..........................................................................................7

          GRANTEE COMMENTS .........................................................................................7

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
              REGULATIONS

          B: LACK OF COMPLIANCE WITH FACILITY SECURITY REGULATIONS

          C: GRANTEE COMMENTS

                                                                    iii
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

New Opportunities, Inc.

New Opportunities, Inc. (the Grantee), is a private, nonprofit community action agency, which
provides services to address the needs of low-income people through job training, education,
child daycare, and other programs. The Grantee provides early learning services to children aged
6 weeks to 5 years and their families through a variety of programs at three facilities: the Muriel
H. Moore Child Development Center (Muriel Moore), the Pierpont Head Start Center (Pierpont),
and the Slocum Center (Slocum) in Waterbury, Connecticut. For the program year November 1,
2008, through October 31, 2009, OHS awarded approximately $3.97 million in Federal Head
Start funds to the Grantee to provide services to 477 children. On July 29, 2009, the Grantee
also received $260,210 in Recovery Act funding.




                                                 1
Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
regulations on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facilities as of May 2009. To gain an
understanding of the Grantee’s operations, we conducted a limited review of the Grantee’s
internal controls as they related to our audit objective.

We performed our fieldwork from May 19 through June 1, 2009, at the Grantee’s administrative
office and at its three childcare facilities in Waterbury, Connecticut.

Methodology

To accomplish our objective, we:

           selected the Grantee based on prior risk analyses and discussions with ACF officials;

           reviewed Federal and State laws, regulations, and policies related to Federal grant awards
            and the Head Start program;

           reviewed the Grantee’s Head Start grant applications and current grant award documents;

           reviewed the Grantee’s files on all 127 current Head Start employees; 1

           reviewed the Grantee’s licenses and documentation of fire inspections;

           visited the Grantee’s three childcare facilities; and

           discussed our preliminary findings with Grantee and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

1
    The 127 current employees were partially or fully funded by the Head Start grant award.


                                                           2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State regulations on ensuring the health and
safety of children in its care. Specifically, as of May 2009:

        The files on 6 of the Grantee’s 127 Head Start employees did not contain (1) employee-
         signed declarations listing any relevant criminal convictions, (2) fingerprint cards for
         Federal and State criminal record checks, or (3) evidence of a check of the State child
         abuse and neglect registry. The files on the 121 remaining employees had all required
         documents.

        The Grantee’s three childcare facilities did not always meet Federal Head Start and
         State regulations on protecting children from unsafe materials and equipment.

        The Grantee’s three childcare facilities did not always provide a secure environment for
         the children in their care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and State
health and safety regulations. The Grantee’s failure to follow these regulations jeopardized the
health and safety of children in its care.

EMPLOYEE DECLARATIONS AND CRIMINAL RECORD CHECKS

Federal and State Regulations

Federal Head Start regulations (45 CFR § 1301.31(b)(2)) state that grantees must require each
current and prospective employee to sign a declaration that lists:

        all pending and prior criminal arrests and charges related to child sexual abuse and their
         disposition,

        convictions related to other forms of child abuse and neglect, and

        all convictions for violent crimes.

Pursuant to 45 CFR § 1301.31(b)(1)(iii), before hiring an employee, the grantee must perform a
State or national criminal record check, as required by State law or administrative requirement.
In Connecticut, child daycare facilities must comply with sections 19a-79-1a through 19a-79-13
of the State of Connecticut Regulation of Department of Public Health Concerning Child Day
Care Centers and Group Day Care Homes (State regulations). Section 19a-79-4a(b) states that
each prospective employee’s file must include (1) completed State and Federal fingerprint cards



                                                  3
for criminal record checks and (2) a completed form approved by the Department of Public
Health submitted for a check of the State child abuse registry.

Grantee’s Compliance With Federal and State Preemployment Regulations

Our review of the Grantee’s files on all 127 current employees found that the Grantee did not
always comply with Federal and State preemployment regulations. Specifically, the files on six
employees (one teacher, two assistant teachers, one team manager, and two educational aides)
contained no evidence of the required employee-signed declaration listing all pending and prior
criminal arrests and charges related to child sexual abuse, convictions related to other forms of
child abuse and neglect, and all convictions for violent crimes. In addition, the files on these six
employees contained no evidence of (1) completed State and Federal fingerprint cards for
criminal record checks or (2) a State child abuse and neglect registry check.

By not ensuring that all employees who supervised or had routine unsupervised contact with
children met all preemployment regulations, the Grantee jeopardized the safety of children in its
care.

MATERIAL AND EQUIPMENT SAFETY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities, materials, and equipment.
Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements.

State regulations (section 19a-79-7a) specify that child daycare facilities must protect children
from unsafe materials and equipment by, among other things:

       storing potentially hazardous substances in a separate locked area;

       ensuring that no dangerous weapons 2 are permitted on the premises of the child daycare
        center unless the carrier of the weapon is a peace officer;

       ensuring that no pesticides (including herbicides) are used in any building or on the
        grounds during regular business hours except in cases of emergency;

       maintaining the building, equipment, and services in a good state of repair;

       keeping the playground free from glass, debris, holes, and other hazards; and

       covering protruding nuts, bolts, and screws.
2
 As described in section 53-206 of the Connecticut General Statutes, dangerous weapons include a knife with an
edged blade more than 4 inches long.



                                                        4
Grantee’s Compliance With Material and Equipment Safety Regulations

The Grantee’s childcare facilities did not always meet Federal Head Start and State health and
safety regulations on protecting children from unsafe materials and equipment. Our visits at
Muriel Moore on May 19, Slocum on May 20 and 21, and Pierpont on May 20 found the
following deficiencies, which we immediately reported to the facility managers on duty and
received assurance that the facilities would correct:

      At all three facilities, toxic chemicals such as paint, acrylic spray, and cleaning supplies
       were stored within the children’s reach in unlocked cabinets, drawers, or closets. At
       Muriel Moore, the children used markers as art supplies even though the markers had a
       warning label that stated “KEEP OUT OF REACH OF CHILDREN” (Appendix A,
       Photograph 1).

      At Muriel Moore, potentially dangerous items, including a butcher knife, a steak knife,
       and a pair of full-sized office scissors, were accessible to children in an unlocked drawer
       in a classroom (Appendix A, Photograph 2).

      On consecutive visits to Slocum, we found pieces of broken glass at the bottom of a slide
       in the outdoor play area, and a small board with protruding, rusty nails was left on the
       walkway leading to the play area (Appendix A, Photograph 3).

      On one visit to Slocum, we noticed that several potentially hazardous items had been left
       unattended on a staircase across from the children’s outdoor play area entrance. These
       items included a machete, an herbicide spray bottle of weed killer, a gas-powered
       chainsaw, a container full of gas, and a metal rake (Appendix A, Photograph 4).

      At Muriel Moore, we found several unsafe conditions in the outdoor play area at the front
       of the facility, including the following:

           o The play area equipment and benches had uncovered, protruding bolts.

           o Several drains in the play area had iron grates with widely spaced grids
             (approximately 2 inches apart) in which a child’s foot could be caught
             (Appendix A, Photograph 5).

           o The storage shed within the play area had a damaged downspout with sharp,
             corroded metal edges.

By not ensuring that all facilities were kept free from unsafe materials and equipment, the
Grantee jeopardized the safety of children in its care.




                                                 5
FACILITY SECURITY

Federal and State Regulations

Pursuant to 45 CFR § 1304.53(a)(7), grantees must provide for the security of all Head Start
facilities. Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities
comply with any State and local licensing requirements.

State regulations (section 19a-79-7a(h)(7)) state that the outdoor play area must be protected
from traffic and other hazards by barriers in a manner safe for children. State regulations
(section 19a-79-7a(d)(5)) also specify that facilities must protect glass doors, windows, or
mirrors if they are fewer than 36 inches from the floor or surface on which a child stands and are
located in a room to which children have access.

Grantee’s Compliance With Facility Security Regulations

The Grantee’s childcare facilities did not always meet Federal Head Start and State health and
safety regulations on ensuring facility security. We defined “facility security” as limiting public
access to the facilities and restricting children’s access to potentially dangerous environments.
Our visits to the Grantee’s three facilities found the following deficiencies, which we
immediately reported to the facility managers on duty and received assurance that the facilities
would correct:

      At Muriel Moore and Slocum, the security systems on the doors were not working
       properly, allowing unrestricted access to the buildings. We observed people entering the
       buildings in the middle of the day without using security key cards or being buzzed in by
       the front office.

      At all three facilities, the kitchen doors were open (Slocum), unlocked (Muriel Moore),
       or unable to be locked (Pierpont), allowing children access to the kitchen areas
       (Appendix B, Photograph 1).

      At Muriel Moore, gates that led to a busy street were left open on several occasions
       (Appendix B, Photograph 2).

      At Pierpont, classroom windows fewer than 36 inches from the floor were not protected
       (Appendix B, Photograph 3).

By not ensuring that all facilities were secure, the Grantee jeopardized the safety of children in
its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations.


                                                 6
RECOMMENDATIONS

We recommend that the Grantee develop and consistently implement procedures to ensure that:

      all employee files contain documentation of (1) employee-signed declarations listing any
       relevant criminal convictions, (2) fingerprint cards for Federal and State criminal record
       checks, and (3) evidence of a check of the State child abuse and neglect registry;

      all unsafe materials and equipment are stored in locked areas out of the reach of children
       and all necessary repairs are addressed in a timely manner; and

      all facilities are secure.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee described its completed and ongoing
actions to address the deficiencies that we identified. The Grantee’s comments are included in
their entirety as Appendix C.




                                                7
APPENDIXES
                                                                                Page 1 of 3

         APPENDIX A: LACK OF COMPLIANCE WITH
      MATERIAL AND EQUIPMENT SAFETY REGULATIONS




Photograph 1 – Taken at the Muriel H. Moore Child Development Center on 5/19/2009
showing label of marker that states “KEEP OUT OF REACH OF CHILDREN.”




Photograph 2 – Taken at the Muriel H. Moore Child Development Center on 5/19/2009
showing knives stored in an unlockable plastic drawer on the floor in a classroom.
                                                                                            Page 2 of 3




Photograph 3 – Taken at the Slocum Center on 5/21/2009 showing a board with rusted
nails in a walkway to the children’s outdoor play area.




`
    Photograph 4 – Taken at the Slocum Center on 5/21/2009 showing a machete and a
    metal rake that were left unattended on stairs next to a walkway that children use to
    access the outdoor play area.
                                                                                      Page 3 of 3




Photograph 5– Taken at the Muriel H. Moore Child Development Center on 5/19/2009
showing one of several drains in the outdoor play area. The spacing between the metal
grids is approximately 2 inches, which is wide enough for a small child’s foot to get caught.
                                                                                   Page 1 of 2

             APPENDIX B: LACK OF COMPLIANCE WITH
                FACILITY SECURITY REGULATIONS




Photograph 1 – Taken at the Slocum Center on 5/20/2009 showing an open kitchen door
with a disconnected or broken door arm (the mechanism used to open and close the door).




Photograph 2 – Taken at the Muriel H. Moore Child Development Center on 5/19/2009
showing the play area perimeter fence with a gate open to a busy street.
                                                                               Page 2 of 2




Photograph 3 – Taken at Pierpont Head Start Center on 5/20/2009 showing an unprotected
window fewer than 36 inches from the floor.
                                APPENDIX C: GRANTEE COMMENTS                               Page 1 of 6


   NEW OPPORTUNITIES, INC.
   Helping People . Clwl1!!if1!!, Lin:\, - Community A('(ioll Ptlrmen/lIp
                                                                                                                 CtJ/,pt1rntc Addrc......
                                                                            232 '\,llrth Elm <-;tr,=,t'I -   W<lt erbur~,   CT ub7{l2
                                                                                           2ln :;7:; l)7"-)l) - 2113 7 ::;',R2:;.:I l l a,1




October 5, 2009



Mr. Michael J. Armstrong
Regional Inspector General Office for Audit Services - Region I
John F. Kennedy Federal Building - Room 2425
Boston, MA 02203

Report Number: A-OI-09-02S0S

Dear Mr. Armstrong,

New Opportunities, Inc acknowledges receipt of the draft report on September 29, 2009 for the
visit conducted May 19 through June 1,2009.

New Opportunities, Inc is committed to providing high quality Head Start comprehensive
services to families leading to their children's school readiness. We strive every day to ensure
that children are safe and well supervised every day that they are in our care. It must be noted
that at all times, including during the OIG staff visit children were well supervised

New Opportunities, Inc has policies and procedures in place to address the multifaceted
operation of Head Start services combined with state child care and state school readiness funds
to create a full day, fully year option. The Muriel H. Moore Child Development Center, Slocum
Head Start Center and Pierpont Head Start Center are monitored and inspected routinely by
internal and external personnel representing licensing and funding sources. Should an issue
occur, New Opportunities, Inc steps in immediately to rectify the issue.

When a suggestion is made, New Opportunities, Inc moves quickly to implement policies and
procedures and/or may make physical plant changes if resources are available.

Hiring Practice Compliance - [Still in progress)
  • 	 The Connecticut Department ofPublic Health implemented the requirement ofsubmitting
      employee finger print cards on September 1. 2000.

    • 	 Documentation of 5 of the 6 employees identified as not having evidence offinger print 

        submission has been secured and is on file at our offices We acknowledge that while the 

        one employee's finger print cards are not available, an outside criminal record check on 

        this employee had been conducted. This employee terminated her employment with lI'ew 

        Opportunities, Inc. on May 19, 2009.




                                                      -
                                                   f ...:'~   4
                                                                                Page 2 of 6




   • 	 Prior to August 2005, the Employment function was directed by the Executive Secretary
       of the President/Chief Executive Officer and for a short period a Human Resources
       Manager. During that time, the Executive Secretary conducted records checks with the
        Waterbury Police Department. The only documentation received was a stamp on the
       form letter, which New Opportunities. Inc. sent to the Waterbury Police Department.
        Copies ofthese form leiters have been given to OIG.

   • 	 The current hiring practices for candidates hired into the Early Childhood Division are
       attached. These procedures were put in place in August 2005 and have been revised to
       refine. comply with state law changes and improve the selection process for the hiring of
       candidates into the Early Childhood Division.

   • 	 In addition. annually our background investigation files are purged and put into storage
       for future reference. In the summer of 2008. the storage area that contained the old
       background investigation reports was damaged due to a water problem. Although we
       tried to dry and restore these files. many ofthe files were damaged beyond recognition.

   • 	 To ensure that this situation does not occur again in the future . we have retrained our
       staff in our procedures and our filing requirements. The Early Childhood Director has
       instituted the practice ofscanning documents to ensure they are readily available.


Material and Equipment Safety
  • 	 New Opportunities. Inc staff met with the OIG representatives during their visit. As an
      issue was identified by OIG, the EDC Director immediately took steps to correct the
      issue. Only bleach solution is allowed in classrooms. maintenance rooms have signage
      reminding crew that the door must be locked at all times. The cleaning crew vendor
      supervisor was met with to review operating policies. Grates were covered with oversized
      rubber doormats. The small hole near a grate )1'as filled with topsoil.

   • 	 Protruding bolts on equipment were covered immediately.

   • 	 The NOI Facilities Director met with the crew and crew instructed the work crew to
       conduct outside repairs. lawn mowing and weed removal ajier the centers are closed.
       Pesticides are only sprayed on the weekend through an authorized vendor

   • 	 The NOI Facilities Director has designated an employee to conduct a daily safety
       inspection ofplaygrounds.

   • 	 Upon discussion ofthe knives, an ECD staffperson conducted a sweep of the centers to
       remove knives. The policy implemented was all knives must be part ofthe meal service. if
       necessary. and must be returned to the food service vendor on the serving cart.

   • 	 Employees purchasing items classroom items in the community must have the items
       evaluated for safety and appropriateness prior to placing in the classrooms. BINGO
       blotters are not allowed.

                                                                          Report # : A-OI-09-02S0S
                                                                                                 Page 3 of 6




      Facilitv Security Regulations Compliance
        • 	 All Centers have a vendor security system to provide access to children by parents and/or
             guardians. At the Muriel H, Moore Child Development Center, the rear door was under
             repair at the time of the inspection with repair personnel on the premises several days.
             The Early Childhood Director confirmed with the vendor that the exterior doors are
             programmed to alarm when openedfor more than 60 seconds and that the vendor should
             have called the respective center as an instance occurs. The vendor immediately
             corrected this situation.

           • 	 The NO] Facilities Director has trained has trained an ECD employee to provide
               replacement security cards upon request.

           • 	 Training was provided in May 2009 to ECD employees who staff the security system at
               centers to ask the purpose for desired entry. Retraining was conducted again on
               September 30, 2009. New Opportunities, Inc has plans to renovate an area and move the
               reception area to the second/ mainjloor at Slocum and has received required approvals.

           • 	 Visitors to the centers are required to wear visitor badges and sign into the bound
               logbook.

           • 	 The food service vendor was informed that the kitchen doors must be closed and
               implemented the procedure immediately.

           • 	 There are ongoing discussion and revised plans to address the fence gate issue. Before
               the classroom leaves the center doorway, a staffmember must check to see that the fence
               gates are indeed locked.


     In closing, New Opportunities, Inc takes child safety and supervision seriously. We continually
     monitor our internal systems and facilities to further improve Head Start services to children and
     their families.

     If further information is required, please do not hesitate to contact me at 203.575.4201.




St:"'"'--') tI
     SincerelY, .   I   II ~~
                     /0
     James H. Gatling, Ph.D.
     President/CEO


     Attachment (I)

     cc:


                                                                                  Report #: A-OI-09-02S0S




Office of Inspector General Note - The deleted text has been redacted because it is
personally identifiable information.
                                                                                        Page 4 of 6

I New Opportunities, Inc. 	 	 	                                               HR Policies and Procedures         I




 ECD Employment Procedures


 Purpose:

 To enhance the quality of candidates and new hires in the ECD Division.

 HR Screening Process:

 Employment Application: HR will review for completeness, for spelling, for complete sentences, in
 addition, to the experience, education and criminallDCF history.

 HR will reject candidates for the following reasons: spelling errors on application, incomplete
 sentences and specifically:

        Ed Aides: 	   must have a high school diploma 
 
 

                      Childcare experience preferred, but not required. Other related 
 
 

                      Experience will be considered; 
 
 


        Asst. Teachers: must have A.S. , CDA, ECE credits or other college 
 
 

                        must have childcare experience; 
 
 


        Teachers: 	 	 	must have A.S., CDA, ECE credits or other college 
 
 

                      must have childcare experience; 
 
 


 Applicants who do not possess the above will be screened out by HR and not available to ECD.

 Procedure:

 1. 	 HR will send applications/resumes to the Hiring Supervisor for review. Example, if a Center 
 
 

      Director sends in a request for Ed aides, all the applications will be sent to the specific Center 
 
 

      Director for review. 
 
 


       	 	 hiring supervisor will review the applications and forward the applications back to HR 

 2. 	 The
      indicating who will be interviewed and who will be rejected . 
 
 


 3. 	 The hiring supervisor will select the initial interviewing team. The recommended configuration 
 
 

      would be the hiring manager and another ECD manager, if desired, plus the Policy Council 
 
 

      member. 


 4. 	 HR
       	 	 contacts the applicants and schedules the interviews. All applicants will come to HR prior to
      the interview. The applicant will:

        a. 	 Complete a new application;
        b. 	 Complete a written Test (Please write four sentences on why you want to work with young
             children);
        c. Asst. TeachersITeachers will take a keyboard test;
I Page 1 of 3                                                  Implemented: 7/08 rev. 10/08 rev. 5109
                                                                                       Page 5 of 6


I New Opportunities, Inc. 	 	 	                                             HR Policies and Procedures       i




        d. 	 A visual assessment will be made regarding neatness and cleanliness.

    If candidate, in HR's opinion, does not adequately pass the above, the applicant will not be
    interviewed. If the applicant is successful, HR will fax the results of the tests to the appropriate
    manager and the applicant will be interviewed.

 5. 	 The Interviewing Team will interview the candidate. Standardized questions have been developed
      and will be used in appropriate interviews. Remember to verify accuracy of reference telephone
      numbers. Note: Questions beyond the standardize questions can be asked to probe or clarify the
      applicant's answer.

 6. 	 The Hiring Supervisor will observe the candidate in a classroom to assess appropriateness with 
 
 

      children. 


 7. 	 After the observation, the Hiring Supervisor may ask additional questions:

    1. 	 What did you observe in the classroom?
    2. 	 What were the positive things in the classroom or what was the teacher doing?
    3. 	 What things or actions could be improved in the classroom?

 8. 	 Hiring Supervisor determines based interview, classroom observation which candidate is the most
      qualified.

 9. 	 Hiring Supervisor will conduct reference checks. Remember to ask the candidate if it is ok to 
 
 

      contact their current employer. 
 
 


 10. Hiring Supervisor will complete a Recommendation to Hire including Interview responses and 

     references. 


 11. The Hiring Supervisor will forward the Recommendation to Hire including attachments as well as
    all other applications to the Division Director.


 12. The Division Director or his/her representative will obtain Policy Council approval.

 13. The Division Director forwards all hiring material and backup to HR for the final processing.

 14. HR will contact the candidate

        a. 	 Conduct
             		      background check
        b. 	 Sexual
             		     Registry list
        c. 	 Complete the drug testing.

 15. HR will notify the Hiring Supervisor of the candidate status and starting date.

 16. HR will notify the candidate and prepare the new hire paperwork.


I Page 2 of 3 	                                              Implemented: 7/08 rev. 10/08 rev. 5109
                                                                                    Page 6 of 6

I New Opportunities, Inc.                                                  HR Policies and Procedures I



 FIRST DAY OF HIRE:

 1. 	 All ECD candidates will start on Tuesday unless the Division Director directs HR to start the
      candidate off cycle.

 2. 	 The Candidate must bring the following to HR prior to the start of their assignment:

        a. 	 Current physical and TB test, and
        b. 	 A copy of their educational credentials (high school diploma , college degree, cda
             certificate) .

        Note: No ECD employee will be started without the appropriate clearances.

 3. 	 The Candidate will go through a brief orientation with HR staff (benefits and employee handbook).

 4. 	 The Candidate will then be directed to MHM for ECD processing which includes fingerprinting and
      a DCF Check. The employee is not to enter a classroom until there is documentation that the
      required forms (fingerprinting and DCF registry check) have been physically mailed.

 5. 	 The Candidate will attend an ECD Orientation which covers the policies and procedures of the
      Division.




i Page 3 of 3 	                                              Implemented: 7/08 rev. 10/08 rev. 5109
